               Office of Inspector General




4th SEMIANNUAL REPORT TO CONGRESS
               $35,/1, 201 – 6(37(0%(5 3, 2011


                                  2&72%(5 2011




                     Federal Labor Relations Authority
       1400 K Street, N.W. Suite 250, Washington, D.C. 20424
                                      TABLE OF CONTENTS

                                                                  PAGE

EXECUTIVE SUMMARY…………………………………………………………………….. 2

FEDERAL LABOR RELATIONS AUTHORITY OVERVIEW……………………….....              3

     MISSION…………………………………………………………………………………………. 3

     ORGANIZATION………………………………………………………………………………..                     3

OFFICE OF INSPECTOR GENERAL……………………………………………………...                    6

OFFICE OF INSPECTOR GENERAL ACTIVITY………………………………………..                 7

     AUDITS AND EVALUATIONS……………………………………………………………...                 7

     INVESTIGATIONS……………………………………………………………………………..                    7

     OTHER ACTIVITIES…………………………………………………………………………..                   8

REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT OF 1978,
                                                             11
AS AMENDED………………………………………………………………………..………...
FY 2011 FREEDOM OF INFORMATION ACT REQUESTS…………………………… 12
     TABLE I SUMMARY OF AUDIT REPORTS WITH CORRECTIVE
             ACTIONS OUTSTANDING FOR MORE THAN 1 YEAR………….            13
    TABLE II LISTING OF AUDIT REPORTS ISSUED…………………………….              13

    TABLE III REPORTS WITH QUESTIONED COSTS …………….……………… 14


    TABLE IV RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER
                                                         15
             USE…………………………………………………………………………..
APPENDIX A     ACRONYMS AND ABBREVIATIONS………………………………...              16

APPENDIX B     DEFINITIONS OF TERMS USED……………………………………..              17




46TH SEMIANNUAL REPORT TO CONGRESS      APRIL 1, 2011 – SEPTEMBER 30, 2011
                                                  EXECUTIVE SUMMARY

  This is the 46th Semiannual Report issued by the Office of Inspector General (OIG)
  of the Federal Labor Relations Authority (FLRA). This report, submitted pursuant
  to Section 5 of the Inspector General Act of 1978, as amended, summarizes the
  major activities and accomplishments of the FLRA OIG for the period April 1, 2011
  to September 30, 2011. The most significant activities of the OIG during the second
  half of Fiscal Year (FY) 2011 are noted below. Additional details pertaining to each
  activity can be found in subsequent sections of this report.

  During the period covered by this report, the OIG initiated the annual audit of the
  FLRA’s FY 2011 Financial Statements (AR-12-01); and the FLRA’s Federal
  Information Security Management Act Evaluation 2011 (ER-12-01) compliance
  reviews. Also, during the seminannual reporting period, the Appalachian Regional
  Commission OIG completed a peer review of the FLRA OIG and issued a report.
  The FLRA OIG received a rating of pass on its system of quality controls.

  The FLRA Inspector General received 43 complaints and 5 Freedom of Information
  Act (FOIA) requests in FY 2011. Of the 43 complaints received, the OIG resolved 21
  of the complaints, referred 18 to other OIGs, and forwarded 3 to other FLRA offices.
  The OIG has one open investigation (IR-11-01) as of the close of this reporting
  period.




46TH SEMIANNUAL REPORT TO CONGRESS          2          APRIL 1, 2011 – SEPTEMBER 30, 2011
  FEDERAL LABOR RELATIONS AUTHORITY OVERVIEW

  MISSION

  The mission of the FLRA is to carry out the five primary statutory responsibilities
  as efficiently as possible and in a matter that gives full effect to the rights afforded
  employees and agencies under the Federal Service Labor-Management Relations
  Statute (the Statute). Under the Statute, the primary responsibilities (type of
  cases) of the FLRA include:

     (1) Determining the appropriateness of units for labor organization
         representation (REP);
     (2) Adjudicating exceptions to arbitrator’s awards (ARB);

     (3) Resolving complaints of unfair labor practices (ULP);

     (4) Resolving bargaining impasses; and

     (5) Resolving issues relating to the duty to bargain (NEG).


  ORGANIZATION

  The FLRA conducts it case processing activities through:

       The Office of the General Counsel (OGC) of the Authority – led by the
        General Counsel, who is appointed by the President and confirmed by the
        Senate – which, through regional offices, is the entry point for ULP charges
        filed with the FLRA. The OGC also processes REP petitions filed with the
        FLRA and decides appeals of Regional Directors’ decisions dismissing ULP
        charges.

       The Office of Administrative Law Judges is the office in which judges
        appointed by the Authority conduct administrative hearings and issue
        recommended decisions in cases involving alleged ULPs and issue decisions
        involving applications for attorney fees under the Back Pay Act or the Equal
        Access to Justice Act.

       The Authority is a quasi-judicial body (with three full-time Members --one of
        which serves as the FLRA Chairman-- appointed by the President and


46TH SEMIANNUAL REPORT TO CONGRESS            3            APRIL 1, 2011 – SEPTEMBER 30, 2011
         confirmed by the Senate), that resolves appeals in ULP and REP cases and
         adjudicates exceptions to ARB awards and NEG appeals.

       The Federal Service Impasses Panel, which consists of seven part-time
        members appointed by the President (without Senate confirmation), resolves
        impasses between Federal agencies and unions representing Federal
        employees under the Statute and the Federal Employees Flexible and
        Compressed Work Schedules Act.

       The FLRA also provides full staff support to two other entities: the Foreign
        Service Impasse Disputes Panel and the Foreign Service Labor Relations
        Board (FSLRB).

  The Chairman is the head of the Agency and also serves as FLRA’s Chief Executive
  and Administrative Officer, [and] overseeing all agency-wide administrative
  functions.

  In carrying out statutory responsibilities, the Chairman oversees the following
  offices:

       The Office of the Executive Director, which provides agency-wide
        operational support through the following divisions: Budget and Finance,
        Administrative Services, and Information Resources Management.

       The Office of the Solicitor, which represents the agency in court proceedings
        before all United States Courts and provides the Chairman legal advice on
        various legal issues.

       The Office of Human Resources, which is responsible for providing agency-
        wide Human Resource services, and leading human capital management
        efforts pursuant to the FLRA Strategic Plan.




46TH SEMIANNUAL REPORT TO CONGRESS          4          APRIL 1, 2011 – SEPTEMBER 30, 2011
                                     ORGANIZATION CHART


                                                    AUTHORITY
                                                   CHAIRMAN AND
                                                  CHIEF EXECUTIVE
                                                      OFFICER




    FOREIGN
    SERVICE            FOREIGN          FEDERAL
                                                                      OFFICE OF                 AUTHORITY
     LABOR             SERVICE          SERVICE                                                                           GENERAL
                                                                     INSPECTOR                  MEMBERS
   RELATIONS           IMPASSE         IMPASSES                                                                           COUNSEL
                                                                      GENERAL                      (2)
     BOARD         DISPUTES PANEL        PANEL




                                                                                           CHIEF COUNSELS
                                                                                                                          REGIONAL
                                                                                            (ONE TO EACH
                                                                                                                           OFFICES
                                                                                              MEMBER)
                                                                                                                             (7)
                                                                                               & STAFF




                                                                                                                     COLLABORATION
      EQUAL                                                                                                                AND
                     OFFICE OF THE    OFFICE OF THE
   EMPLOYMENT                                                       OFFICE OF THE         CHIEF COUNSEL TO            ALTERNATIVE
                      EXECUTIVE      ADMINISTRATIVE
   OPPORTUNITY                                                       SOLICITOR             THE CHAIRMAN                  DISPUTE
                       DIRECTOR        LAW JUDGES
    PROGRAM                                                                                                            RESOLUTION
                                                                                                                        PROGRAM




                                      INFORMATION                                                           CASE INTAKE
  ADMINISTRATIVE     BUDGET AND                                                       HUMAN
                                       RESOURCES                                                                AND
    SERVICES           FINANCE                                                      RESOURCES
                                      MANAGEMENT                                                            PUBLICATION
     DIVISION          DIVISION                                                      DIVISION
                                         DIVISION                                                             DIVISION




46TH SEMIANNUAL REPORT TO CONGRESS                        5                   APRIL 1, 2011 – SEPTEMBER 30, 2011
                                     OFFICE OF INSPECTOR GENERAL

  The Inspector General Act of 1978, as amended (hereafter referred to as the IG Act),
  requires the FLRA and other small agencies to establish an OIG. FLRA is a
  designated Federal entity under the IG Act of 1978, as amended. The Dodd-Frank
  Wall Street Reform and Consumer Protection Act (P.L. 111-203) altered the
  relationship of the designated Federal entity Offices of Inspector General with the
  agency head by establishing that the term “head of the designated Federal entity”
  for FLRA “means the members of the Authority.” In accordance with the Dodd-
  Frank Act, instead of reporting to the Chairman as we have in the past, we submit
  this report to the Chairman and to Authority Members.

  The FLRA OIG is responsible for:

     (1) conducting and supervising audits and investigations relating to FLRA
         programs and operations;

     (2) reviewing legislation;

     (3) recommending policies designed to promote economy, efficiency, and
         effectiveness of the establishment; and

     (4) keeping the Chairman, Authority Members and Congress fully and currently
         informed about problems and deficiencies, as well as the necessity for
         corrective actions.

     To aid the OIG in accomplishing its mission, the OIG was provided an IG and an
     administrative assistant.

                                  ORGANIZATION CHART



                                         INSPECTOR
                                          GENERAL




                        ADMINISTRATIVE                 OPERATIONAL
                          ASSISTANT                      SUPPORT
                                                     - COUNSEL TO THE IG
                                                     - CONTRACTOR




46TH SEMIANNUAL REPORT TO CONGRESS           6           APRIL 1, 2011 – SEPTEMBER 30, 2011
                  OFFICE OF INSPECTOR GENERAL ACTIVITY

  AUDITS AND EVALUATIONS

  In accordance with the IG Act, the FLRA OIG conducts, supervised and coordinates
  audits and evaluation relating to the programs and operations of the FLRA.

  ONGOING AUDITS AND EVALUATIONS

  One audit and one evaluation are ongoing at the close of the reporting period:

     (1) Financial Statement Audit of the Federal Labor Relations Authority for
         Fiscal Year 2011 (AR-12-01); and

     (2) Evaluation of the Federal Labor Relations Authority Compliance with the
         Federal Information Security Management Act Fiscal Year 2011 (ER-12-01).

  These engagements are planned to be completed in the first half of FY 2012 and the
  results will be included in the next seminannual report.

  INVESTIGATIONS

  The FLRA OIG receives and investigates allegations of fraud, waste, abuse and
  misconduct within FLRA programs and operations. The FLRA OIG investigations
  can give rise to administrative, civil and criminal penalties. Based on
  investigations conducted, the FLRA IG issues a report that sets forth the
  allegations and an objective description of the facts to FLRA management regarding
  administrative and civil matters. Investigations which uncover potential criminal
  activity are referred to the Department of Justice. As of the end of the semiannual
  reporting period, there is one open investigation relating to timekeeping and
  attendance.

  Timekeeping and Attendance (IR-11-01)

  This investigation was predicated upon allegations of fraud, waste and abuse by
  FLRA staff relative to timekeeping, attendance and reporting practices. The
  allegations were submitted anonymously to the OIG Hotline. The Assistant U.S.
  Attorney declined criminal prosecution.

  This investigation has been completed and the results have been forwarded to
  management and the Authority for action.




46TH SEMIANNUAL REPORT TO CONGRESS          7          APRIL 1, 2011 – SEPTEMBER 30, 2011
  OIG HOTLINE

  In order to facilitate reporting of allegations, FLRA OIG maintains a hotline (see
  “Contacting the Office of Inspector General”). Callers who have general questions
  or concerns that do not fall within the OIG’s jurisdiction are referred to other
  entities, such as other FLRA offices, Federal agencies and local or state
  governments.

  During FY 2011, we received 43 hotline complaints. The OIG resolved 21 of the
  complaints, referred 18 to other OIGs, forwarded 3 to other FLRA offices and
  opened one investigation.


                                   OIG Hotline
                              2%

                         7%



                                                49%      Resolved by FLRA OIG

                                                         Reffered to Other OIG
            42%
                                                         Forward to Other FLRA Office

                                                         Opened Investigation




  OTHER ACTIVITIES

  REGULATORY REVIEW

  Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the OIG
  to review existing and proposed legislation and regulations relating to FLRA
  programs and operations of FLRA. During this reporting period the OIG did not
  review any legislation and regulations relating to FLRA.

  PEER REVIEW

  Offices of Inspector General performing audits are required to perform (and
  undergo) reviews of other OIG offices on a 3-year cycle. Peer reviews are conducted


46TH SEMIANNUAL REPORT TO CONGRESS          8          APRIL 1, 2011 – SEPTEMBER 30, 2011
  of an OIG audit organization’s system of quality control in accordance with the
  Council of Inspectors General on Integrity and Efficiency (CIGIE) Guide for
  Conducting External Peer Reviews of the Audit Organizations of Federal Offices of
  Inspector General, based on requirements in the Government Auditing Standards
  (Yellow Book). Federal audit organizations can receive a rating of pass, pass with
  deficiencies, or fail.

  Section 989C of the Dodd-Frank Wall Street and Consumer Protection Act of 2010,
  contains additional semiannual reporting requirements pertaining to peer review
  reports. Federal Inspectors General are required to engage in peer review processes
  related to audit operations. In keeping with Section 989C, our office is reporting
  the following information related to its peer review activities. These activities cover
  our role as both the reviewed, and the reviewing OIG.

     Peer Review Conducted on FLRA OIG Audit Operations

     The Appalachian Regional Commission OIG completed a peer review of the
     FLRA OIG and issued a report (OIG 11-04) on its system of quality controls on
     June 9, 2011. The peer review was conducted for the period of August 2010
     through May 2011; consistent with the period of which the new FLRA IG became
     responsible for the office. The report has a rating of pass, and it is available at
     the FLRA OIG website for further information http://www.flra.gov/webfm_send/505.

     Peer Review Planned on FLRA OIG Audit Operations

     The FLRA OIG is not currently schedule for a peer review. The next peer review
     to be conducted on the FLRA’s OIG system of quality controls is projected for
     FY 2014.

     Peer Review to be Conducted by FLRA OIG on Other OIG Audit Operations

     The FLRA is scheduled to perform a peer review of the Election Assistance
     Commission OIG in FY 2012.

  MEMORANDUM OF UNDERSTANDING

  In accordance with Section 6 of the Inspector General Reform Act of 2008, each
  Inspector General shall have his or her own (not reporting to agency management) legal
  counsel, or obtain the services of a counsel appointed by and directly reporting to another
  Inspector General or CIGIE on a reimbursable basis. The OIG signed a Memorandum of
  Understanding with the Department of Treasury OIG to provide legal services on a
  fiscal-year basis.




46TH SEMIANNUAL REPORT TO CONGRESS              9           APRIL 1, 2011 – SEPTEMBER 30, 2011
  LIAISON ACTIVITIES

  The FLRA IG is a member of the CIGIE, which was established on October 14,
  2008, pursuant to the Inspector General Reform Act of 2008. Additionally, the
  FLRA IG is a member of the Inspection and Evaluation Committee.




46TH SEMIANNUAL REPORT TO CONGRESS         10         APRIL 1, 2011 – SEPTEMBER 30, 2011
                REPORTING REQUIREMENTS OF THE INSPECTOR
                        GENERAL ACT OF 1978, AS AMENDED
   The reporting requirements of the Inspector General Act of 1978, as amended, are
   listed in the following table along with the location of the required information. The
   word “None” appears where there is no data to report under a particular
   requirement.


 REFERENCE                                    REPORTING REQUIREMENT                           PAGE
Section 4(a)(2)          Review of legislation and regulations                                p. 8
Section 5(a)(1)          Significant problems, abuses, and deficiencies relating to the       None
                         administration of programs and operations
Section 5(a)(2)          Recommendations with respect to significant problems,                None
                         abuses or deficiencies
Section 5(a)(3)          Recommendations included in previous semiannual reports             p. 13
                         on which corrective action has not been completed (TABLE I)
Section 5(a)(4)          Matters referred to prosecutive authorities                          None
Section 5(a)(5)          Summary of reports                                                   None
Section 5(a)(6)          Listing by subject of audit reports issued (TABLE II)               p. 13
Section 5(a)(7)          Summary of significant reports                                        None
Section 5(a)(8)          Statistical table – Reports with questioned costs (TABLE III)       p. 14
Section 5(a)(9)          Statistical table – Recommendations that funds be put to            p. 15
                         better use (TABLE IV)
Section 5(a)(10)         Summary of each audit report, inspection report, and                 None
                         evaluation report without management decisions
Section 5(a)(11)         Description and explanation of revised management decision           None
Section 5(a)(12)         Management decision with which the IG is in disagreement             None
Section 5(a)(13)         Information under section 05(b) of the Federal Financial             None
                         Management Improvement Act (FFMIA) of 19961
Section 5(a)(14)         Peer Review Activity                                                 p. 8




   1
       FLRA is not subject to the requirements of the FFMIA.


46TH SEMIANNUAL REPORT TO CONGRESS                             11   APRIL 1, 2011 – SEPTEMBER 30, 2011
   FY 2011 FREEDOM OF INFORMATION ACT REQUESTS

  Number of Freedom of Information Act (FOIA) Requests Received                   5
  Number of FOIA Requests Processed                                               6
  Number Granted                                                                  1
  Number Partially Granted                                                        2
  Number Not Granted                                                              3
  Reasons for Denial
  No Records Available                                                            3
  Referred to Other Agencies
  Requests Denied in Full Exemption 3
  Requests Denied in Full Exemption 5
  Requests Denied in Full Exemption 7(A)
  Requests Denied in Full Exemption 7(C)
  Request Withdrawn
  Not a Proper FOIA Request
  Not an Agency Record
  Duplicate Request
  Other
  Requests for OIG Reports from Congress and Other Government Agencies
  Received
  Processed
  Appeals Received
  Appeals Processed
  Appeals Completely Upheld
  Appeals Partially Reversed
  Not Proper FOIA Request
  Other
  Number of OIG Reports/Documents Released in Response to Requests               26
  Note 1: The OIG processed one FOIA request that was received in FY 2010.
  Note 2: During this 6-month period, reports were posted on line on the OIG Web
         site: http://www.flra.gov/OIG




46TH SEMIANNUAL REPORT TO CONGRESS         12         APRIL 1, 2011 – SEPTEMBER 30, 2011
                                                                        TABLE I

       SUMMARY OF AUDIT REPORTS WITH CORRECTIVE
       ACTIONS OUTSTANDING FOR MORE THAN 1 YEAR

                                                           RECOMMENDATIONS
                                REPORT      ISSUE
       REPORT TITLE                                 NUMBER      CLOSE       OPEN
                                NUMBER      DATE


  Report on Evaluation of     FY09FISMA     07/09     16          0           16
  FLRA’s FISMA
  Compliance




                                                                        TABLE II

                               LISTING OF AUDIT REPORTS ISSUED

  REPORT      ISSUE         REPORT TITLE   QUESTIONED UNSUPPORTED        FUNDS PUT
  NUMBER      DATE                           COSTS       COSTS           TO BETTER
                                                                            USE




46TH SEMIANNUAL REPORT TO CONGRESS         13        APRIL 1, 2011 – SEPTEMBER 30, 2011
                                                                     TABLE III

                               REPORTS WITH QUESTIONED COSTS
  The following statistical table summarizes the OIG monetary recommendations and
  the FLRA responses to those recommendations.



                                      NUMBER OF    QUESTIONED       UNSUPPORTED
                                       REPORTS       COSTS             COSTS
  A. For which no management
     decision has been made by
                                          0            $0                 $0
     the commencement of the
     reporting period.

  B. Which were issued during
                                          0            $0                 $0
     the reporting period.

                   Subtotals (A+B)        0            $0                 $0

  C. For which a management
     decision was made during             0            $0                 $0
     the reporting period.

     (i) Dollar value of disallowed
                                          0            $0                 $0
         costs; and

     (ii) Dollar value of costs not
                                          0            $0                 $0
          disallowed.

  D. For which no management
     decision has been made by
                                          0            $0                 $0
     the end of the reporting
     period.

  E. Reports for which no
     management decision was
                                          0            $0                 $0
     made within six months of
     issuance.




46TH SEMIANNUAL REPORT TO CONGRESS            14     APRIL 1, 2011 – SEPTEMBER 30, 2011
                                                                      TABLE IV

             RECOMMENDATIONS THAT FUNDS BE PUT TO
                                      BETTER USE


                                                 NUMBER OF         DOLLAR VALUE
                                                  REPORTS         (IN THOUSANDS)
  A. For which no management decision has
     been made by the commencement of                0                   $0
     the reporting period.

  B. Which were issued during the
                                                     0                   $0
     reporting period.

                            Subtotals (A+B)          0                   $0

  C. For which a management decision was
                                                     0                   $0
     made during the reporting period.

     (i) Dollar value of recommendations
                                                     0                   $0
         that were agreed to by management

     (ii) Dollar value of recommendations
          that were not agreed to by                 0                   $0
          management

  D. For which no management decision has
     been made by the end of the reporting           0                   $0
     period.

  E. Reports for which no management
     decision was made within six months             0                   $0
     of issuance.




46TH SEMIANNUAL REPORT TO CONGRESS          15       APRIL 1, 2011 – SEPTEMBER 30, 2011
                                                                APPENDIX A

                                ACRONYMS AND ABBREVIATIONS

   ARB                     Arbitration (type of FLRA case)

   FFMIA                   Federal Financial Management Improvement Act

   FISMA                   Federal Information Security Management Act of 2002

   FLRA                    Federal Labor Relations Authority

   FOIA                    Freedom of Information Act

   FSLRB                   Foreign Service Labor Relations Board

   FY                      Fiscal Year
                           Council of Inspectors General on Integrity and
   CIGIE
                           Efficiency
   HRK                     Harper, Rains, and Knight Company

   IG                      Inspector General

   NEG                     Negotiability (Type of FLRA case)

   OGC                     Office of the General Counsel

   OIG                     Office of Inspector General

   OMB                     Office of Management and Budget

   P.L.                    Public Law

   REP                     Representation (Type of FLRA Case)

   STATUTE                 Federal Service Labor-management Relations Statute

   ULP                     Unfair Labor Practice (Type of FLRA case)




46TH SEMIANNUAL REPORT TO CONGRESS       16         APRIL 1, 2011 – SEPTEMBER 30, 2011
                                                                      APPENDIX B

                                     DEFINITIONS OF TERMS USED

   Disallowed Cost              A questioned cost that management, in a management
                                decision, has sustained or agreed should not be charged
                                to the Government.

   Final Action                 The completion of all actions that management has
                                concluded, in its management decision, are necessary
                                with respect to the findings and recommendations. If
                                management concluded that no actions were necessary,
                                final action occurs when management decision is
                                issued.

   Management Decision          An evaluation by management of the findings and
                                recommendations included in an audit report and the
                                issuance of a final decision by management concerning
                                its response to such findings and recommendations,
                                including actions concluded to be necessary.

   Questioned Cost              A cost questioned because of: (a) an alleged violation of
                                a law, regulation, contract, or other agreement or
                                document governing the expenditures of funds; (b) a
                                finding that, at the time of the audit, such cost is not
                                supported by adequate documentation; or (c) a finding
                                that the expenditure of funds for the intended purpose
                                is unnecessary or unreasonable.

   Recommendation That          A recommendation that funds could be used more
   Funds Be Put To Better Use   efficiently if management took actions to complete the
                                recommendation, including: (a) reduction in outlays; (b)
                                deobligate funds; (c) costs not incurred by implementing
                                recommended improvements related to the operations
                                of the establishment, a contractor; (d) avoidance of
                                unnecessary expenditures noted in preaward reviews of
                                contract; or (e) any other savings which specifically
                                identified.

   Unsupported Cost             A cost questioned because at the time of the audit, such
                                cost is not supported by adequate documentation.




46TH SEMIANNUAL REPORT TO CONGRESS         17           APRIL 1, 2011 – SEPTEMBER 30, 2011
CONTACTING THE OFFICE OF INSPECTOR GENERAL




IF YOU BELIEVE AN ACTIVITY IS WASTEFUL,
FRAUDULENT, OR ABUSIVE OF FEDERAL FUNDS,
CONTACT THE:




HOTLINE (800)331-3572
HTTP://WWW.FLRA.GOV/OIG-HOTLINE




EMAIL: OIGMAIL@FLRA.GOV
CALL: (202)218-7970 FAX: (202)343-1072
WRITE TO: 1400 K Street, N.W. Suite 250,       Washington, D.C. 20424




 The complainant may remain confidential; allow their name to be used; or anonymous. If the complainant
 chooses to remain anonymous, FLRA OIG cannot obtain additional information on the allegation, and also
 cannot inform the complainant as to what action FLRA OIG has taken on the complaint. Confidential status
 allows further communication between FLRA OIG and the complainant after the original complaint is
 received. The identity of complainants is protected under the provisions of the Whistleblower Protection Act of
 1989 and the Inspector General Act of 1978. To learn more about the FLRA OIG, visit our Website at
 http://www.flra.gov/oig
